GR-70-98-002
U.S. Department of Justice
 
Audit Report
 
COMMUNITY ORIENTED POLICING SERVICES
Accelerated Hiring, Education and Deployment Grant for the Township of
Middletown, New Jersey, Police Department
Grant Number 95CCWX0039
Audit Report Number GR-70-98-002
 
We have audited the Community Oriented Policing Services (COPS) Accelerated Hiring,
Education and Deployment (AHEAD)grant awarded to the Middletown Township, New Jersey,
Police Department. This grant, Grant Number 95CCWX0039, was for two full-time officers for
the period from April 1, 1995 through March 31, 1998. In response to concerns that
Middletown was not conforming with the grants terms and conditions, COPS asked that
we conduct an audit.

Audit Results
Middletown did not conform with grant conditions in that the township:


did not supplement its deployment to community policing by the number of officers funded
    by the grant,


supplanted local funds with federal funds, and


did not take timely action to fill sworn-officer vacancies that occurred during the
    grant.

Consequently, we question the $17,500 Middletown has received as reimbursement and
recommend that the remaining $132,500 be put to a better use.
#####